 CORROSION PREVENTION PROGRAMS WITHIN THE SERVICES
         FOR TRACKED AND WHEELED VEHICLES



Report No. 98-079                         February 20, 1998




              Office of the Inspector General
                  Department of Defense
Additional Information and Copies

To obtain additional copies of this audit report, contact the Secondary Reports
Distribution Unit of the Analysis, Planning, and Technical Support Directorate at (703)
6048937 (DSN 664-8937) or FAX (703) 6048932 or visit the Inspector General, DOD
Home Page .at: WWW.DODIG.OSD.MIL.

Suggestions for Audits

To suggest ideas for or to request future audits, contact the Planning and Coordination
Branch of the Analysis, Planning, and Technical Support Directorate at (703) 6048908
(DSN 6648908) or FAX (703) 6048932. Ideas and requests can also be mailed to:
                      OAIG-AUD (ATTN: APTS Audit Suggestions)
                      Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                      Arlington, Virginia 22202-2884

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-9098;
by sending an electronic message to Hotline @ DODIG.OSD.MIL; or by writing to the
Defense Hotline, The Pentagon, Washington, D.C. 2033 l-1900. The identity of each
writer and caller is Mly protected.
                           INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                           ARLINGTON, VIRGINIA 22202




                                                                       February 20, 1998


MEMORANDUM FOR ASSISTANT SECRETARY OF THE NAVY (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Audit Report on Corrosion Prevention Programs Within the Services for
         Tracked and Wheeled Vehicles (Report No. 98-079)


        We are providing this audit report for your information and use. Because this
report contains no findings or recommendations, no written comments were required,
and none were received.

        We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Mr. Michael E. Simpson, Audit Project Manager, at
(703) 604-8972, or e-mail Msimpson@DODIG.OSD.MIL or Julius L. Hoffman, Team
Leader, at (703) 604-8976, or e-mail JHoffman@DODIG.OSD.MIL. See Appendix B
for the report distribution. The audit team members are listed on the inside back cover.




                                         David K. Steensma
                                  Deputy Assistant Inspector General
                                            for Auditing
                           Office of the Inspector General, DOD
Report No. 98-079                                                   February 20,199s
  (Project No. 7AG-0020)

         Corrosion Prevention Programs Within the Services for
                    Tracked and Wheeled Vehicles

                                  Executive Summary

Introduction. Corrosion degradation of DOD weapon systems and equipment
represents an important cost-of-ownership issue. Current costs, resulting from
corrosion, are difficult to establish, but they are estimated to be significant. The
Deputy Under Secretary of Defense for Logistics tasked each Service to review the
long-term investment strategy to determine how to maximize the potential of
dehumidified preservation as a maintenance technology. The review was to include a
detailed economic analysis highlighting weapon systems and locations that would
benefit most from dehumidification as a maintenance technology. The Army, the Air
Force, and the Marine Corps responded by stating that they were either considering
dehumidification or that current programs were sufficient to deter corrosion.

Audit Objectives. Audit objectives were to determine the adequacy of planning for
corrosion prevention and control for tracked and wheeled systems acquired by the
Services and to determine whether corrosion prevention and control programs are used
as part of maintenance planning and life-cycle costs. We did not review new
maintenance technologies used to reduce the cost of ownership because of limited audit
resources.

Audit Results. All the Services have corrosion prevention policies and procedures in
place to minimize corrosion on their tracked and wheeled vehicles. The extent to
which the policies and procedures are effective varies among the Services based on the
emphasis placed on corrosion prevention. The three Army acquisition program
managers that we visited took action to ensure that systems in production were
receiving corrosion protection. The Army location that we visited had an effective
corrosion prevention program. The Navy had suspended corrosion prevention methods
at one of the four locations that we visited, but it is now taking steps to follow the
current regulations. The Air Force has an in-depth corrosion prevention program that
was effective at the four locations that we visited. The Marine Corps has a very active
corrosion prevention program. The policies and procedures for corrosion control were
effective for the systems and locations reviewed.
Management Comments. We provided a draft of this report to management. Because
the report contained no findings or recommendations, comments were not required, and
none were received. Therefore, we are publishing this report in final form.




                                         ii
Table of Contents
Executive Summary                                          i


Part I - Audit Results
      Audit Background                                    2
      Audit Objectives                                    2
      Corrosion Prevention Programs Within the Services   3

Part II - Additional Information
      Appendix A. Audit Process
        Scope and Methodology                             10
        Management Control Program Review                 10
      Appendix B. Report Distribution                     12
Part I - Audit Results
Audit Background
    Efforts to protect U.S. Defense assets against corrosion have been ongoing since
    the first American militias were formed nearly 400 years ago. Since then, many
    methods of preservation have been used, but corrosion still continues to reduce
    DOD readiness and increase its maintenance costs. Corrosion degradation of
    DOD weapon systems and equipment represents an important cost-of-ownership
    issue. Current costs are difficult to establish, but they are estimated to be
    significant. All Services have corrosion prevention policies and procedures in
    place to minimize corrosion on their wheeled and tracked vehicles. The extent
    to which the policies and procedures are effective varies among the Services,
    based on the emphasis placed on corrosion prevention. In addition, the Deputy
    Under Secretary of Defense for Logistics tasked each Service to review the
    long-term investment strategy to determine how to maximize the potential of
    dehumidified preservation as a maintenance technology. The review was to
    include a detailed economic analysis, which highlighted the weapon systems and
    locations that would benefit most from dehumidification as a maintenance
    technology. The Services responded by stating that they were either considering
    dehumidification or that current programs were sufficient to deter corrosion.


Audit Objectives
    Audit objectives were to determine the adequacy of planning for corrosion
    prevention and control for tracked and wheeled systems acquired by the
    Services and to determine whether corrosion prevention and control programs
    are used as part of maintenance planning and life-cycle costs. We did not
    review new maintenance technologies used to reduce the cost of ownership
    because of limited audit resources.




                                       2
           Corrosion Prevention Programs Within
           the Services
           All the Services have corrosion prevention policies and procedures in
           place to minimize corrosion on their wheeled and tracked vehicles. The
           extent to which the policies and procedures are effective varies among
           the Services, based on the emphasis placed on corrosion prevention.
           While our scope was limited to systems and locations within each
           Service, the policies and procedures for corrosion control appeared to be
           effective. The three Army acquisition program managers that we visited
           took action to ensure that systems in production were receiving corrosion
           protection. The one Army location that we visited had an effective
           corrosion prevention program. The Navy had suspended corrosion
           prevention methods at one of four organizations that we visited, but it is
           now taking steps to follow the current regulations. The Air Force has an
           in-depth program to deal with corrosion prevention, and it appears to be
           effective at the four locations that we visited. The Marine Corps has a
           very active corrosion prevention program.


Corrosion Prevention in the Army
    Acquisition Planning-Tracked Systems. We visited three Army programs
    currently in production. The Program Managers for the MlA2 Main Battle
    Tank and the M109A6 Paladin Self-Propelled Howitzer had taken action to
    ensure corrosion prevention. For example, the MlA2 Main Battle Tank paint is
    resistant up to level 2 corrosion. The Paladin is constructed of aluminum, and
    the contractor is required to include corrosion prevention and control as a
    discipline in the manufacture of components, subassemblies, and deliverable end
    items.
    We visited Fort Hood, Texas, to inspect equipment located there. The 1st
    Cavalry Division and the 4th Infantry Division at Fort Hood followed Technical
    Manual lo/20 Series, Preventive Maintenance Checks and Services. Each unit
    has an Operations Officer and a Maintenance Officer who are responsible for
    the use and maintenance of tracked and wheeled vehicles assigned to each unit.
    The Maintenance Officer develops the preventive maintenance checks and
    services program, which is based on Technical Manual 10/20, and the
    Operations Officer ensures that preventive maintenance checks and services are
    performed by adhering to locally established procedures.
            MlAl Main Battle Tank and M109A6 Paladin Self-Propelled
    Howitzer. We checked 58 MlA2 Main Battle Tanks and 54 M109A6 Paladins
    at Fort Hood, Texas, and we saw no visual signs of rust or corrosion
    Preventive maintenance checks are accomplished at least weekly.
           Acquisition Planning-Family of Medium Tactical Vehicles. The first
    7,199 vehicles in the Family of Medium Tactical Vehicles acquisition program

                                        3
Corrosion Prevention Programs Within the Services


      were protected for a lo-year period. The Army is spending another $2.5
      million to have the standard cab shell and air drop cab shell hot-dip galvanized.
      The process will extend the corrosion protection for the Family of Medium
      Tactical Vehicles beyond the lo-year requirement specified in the original
      contract. The additional corrosion protection was added when field reports
      noted severe corrosion problems for units in the Pacific. Hot-dip galvanizing is
      to begin with production number 7,200 and should help to correct the corrosion
      problem in the Pacific.
      Army Corrosion Initiatives. The Team Materials, Environment, Packaging,
      and Special Processes Division is undertaking accelerated corrosion test
      initiatives, including marine corrosion exposure tests on coatings and current
      state-of-the-art tests for repairing fielded systems, and is developing a relational
      database for corrosion issues. The War Reserve Command at Rock Island,
      Illinois, uses dehumidified warehouses in Europe for storing war reserve assets
      and also plans to dehumidify ships used for the propositioned afloat program.
      Conclusion. The Army is not experiencing corrosion problems for two of the
      systems reviewed and is addressing potential corrosion problems by designating
      the Army Tank-automotive and Armaments Command as the corrosion
      prevention-and-control lead.


Corrosion Prevention in the Navy
      The Naval Facilities Engineering Command is responsible for maintaining civil
      engineer support equipment and prepositioned war reserve material stock in a
      state of readiness. Corrosion can be a serious problem for the Navy because
      corrosion is mostly caused by the presence of water and condensation. Salt
      water and acid rain also make vehicles more susceptible to corrosion and rust.
      Therefore, an effective corrosion prevention-and-control program is very
      important to the Navy. We randomly selected 411 vehicles located at two Navy
      Construction Battalion Centers and 153 vehicles at two Navy public works
      centers for our review. We visually inspected the interior and exterior of the
      vehicles for rust and other signs of corrosion.
      Construction Battalion Center-Port Hueneme. We inspected 129 vehicles,
      which included 4x4 trucks, stake trucks, dump trucks, and truck tractors at the
      Navy Construction Battalion Center-Port Hueneme. Our review showed that 68
      of the vehicles that we inspected contained surface rust. The rust was extensive
      on drive shafts, transfer cases, differentials, and exhaust systems. In 1989, Port
      Hueneme discontinued its dehumidification program for wheeled vehicles in
      wartime storage because of high maintenance costs. In addition, Port Hueneme
      did not inspect wheeled vehicles in storage. As a result, vehicles have
      remained in storage for up to 2 years without being maintained. Port Hueneme
      is currently preparing new maintenance procedures to ensure that vehicles in
      storage are properly maintained.
      Construction Battalion Center-Gulfport. We inspected 282 vehicles at the
      Navy Construction Battalion Center-Gulfport. Gulfport personnel applied
      undercoating to its vehicles before placing them in storage. Inspections showed
                                            4
                              Corrosion Prevention Promum Within the Services


    that the vehicles showed no signs of rust or corrosion. The vehicles are
    adequately maintained because Gulfport officials are using the preservation
    techniques recommended in Naval Facilities Engineering Command Publication-
    90, “Preservation, Packaging, Packing of Naval Facilities Engineering
    Command Technical Material,” September 1989, which establishes policy to
    protect equipment against deterioration and damage during handling, shipping,
    and storing; requires that protection be applied to equipment to prevent
    corrosion; and recommends several methods of corrosion control, including
    protective coatings, preservatives, and packing techniques. The Navy uses
    preservatives such as thin-film solvents, petroleum-based hot applications, and
    rust-inhibiting oils. The vehicles also receive one of three levels of corrosion
    protection. Level A provides protection from the most severe conditions, while
    levels B and C provide protection for equipment during shipping, handling, and
    storing.
    Public Works Centers-Norfolk and San Diego. We inspected 153 vehicles at
    Navy Public Works Centers-Norfolk and San Diego, including passenger vans,
    panel vans, compact pickup trucks, and maintenance and utility trucks. We saw
    no signs of corrosion or rust on any of the 153 vehicles. The public works
    centers apply undercoating in accordance with Naval Facilities Engineering
    Command Publication-90 to prevent corrosion and rust, and the vehicles
    undergo maintenance checks every 3,000 miles.
     Conclusion. Overall, when the Navy uses its preservation, protection, and
    storage methods, they are effective in preventing deterioration and corrosion of
    vehicles. The Construction Battalion Center-Gulfport and the Norfolk and San
    Diego public works centers apply protective coatings on wheeled vehicles and
    perform periodic inspections as a method of corrosion prevention and control.
    However, the Port Hueneme Construction Battalion Center did not use the
    preservation techniques required to prevent rust and corrosion, and it also did
    not perform periodic inspections or maintenance on vehicles in the storage
    facilities. As a result, rust is present on the vehicles, and potential also exists
    for corrosion. Currently, Port Hueneme is working to establish maintenance
    procedures to prevent rust and corrosion for vehicles in storage facilities.


Corrosion Prevention in the Air Force
    The Air Force uses commercial off-the-shelf purchasing for general purpose
    vehicles and light trucks. Warner Robins Air Force Base is the central
    acquisition agency for purchasing Air Force vehicles. Each air base identifies
    its vehicle requirements, which are forwarded to Warner Robins for
    procurement. The vehicles and trucks contain the standard commercial
    corrosion protection used by the automobile companies. The standard
    commercial corrosion coverage states that the contractor shall provide the
    chassis manufacturer’s commercial corrosion coverage. The coverage is for at
    least 5 years or 100,000 miles. The Air Force purchases special purpose
    vehicles that have commercial off-the-shelf chassis with unique or special
    equipment attached to the chassis. The Air Force also purchases medium and
    heavy commercial trucks and tractors. The Air Force obtains its tactical

                                         5
Corrosion Prevention Programs Within the Services

      vehicles from the Army, which includes corrosion protection for the tactical
      vehicles in the purchasing contracts.
      The Air Combat Command’s Top Wheels Program focuses on the care and
      appearance of military vehicles. The purpose of the program is to instill pride
      of ownership in vehicle operators and maintenance personnel at all command
      levels. The program states that the Air Force will train and license the
      minimum number of personnel to operate, inspect, and maintain Air Force
      vehicles. Each base had programs and procedures in place to ensure that the
      vehicles are well maintained and thoroughly inspected for corrosion.
      Vehicle Control and Top Wheels Programs. Langley, Hill, Ellsworth, and
      Eglin Air Force Bases operate Vehicle Control Officer and Top Wheels
      programs. The Vehicle Control Officer Program requires a Vehicle Control
      Officer to be appointed to each user unit. Air Force Policy Directive 24-3
      states that the Air Force will train and license the minimum number of
      personnel to operate, inspect, and maintain Air Force vehicles and to track their
      qualifications. The bases also use a Champion Wheels/Top Wheels Program that
      establishes standards for vehicle interior, exterior, and engine compartments.
      The purpose of the program is to enhance and maintain a high appearance
      standard for the vehicle fleet. The Vehicle Control Officer ensured that the
      vehicles are inspected at least once a year by using no-notice inspections,
      Commander’s roll-bys, and a Champion Wheels/Top Wheels Program. The
      Vehicle Control Officer provided each vehicle operator with a maintenance
      checklist, which identifies major and minor vehicle discrepancies that may lead
      to corrosion damage. Each year, the unit Commander checks the vehicles
      personally and notes any discrepancies, which are later corrected by the
      maintenance or the paint organizations.
      Vehicle Inspections. We inspected 741 vehicles at Langley, Ellsworth, Eglin,
      and Hill Air Force Bases.
              Langley. We inspected 123 vehicles such as sedans, pick-up trucks, and
      dump trucks at Langley Air Force Base. In addition, we reviewed the no-notice
      inspection data for the vehicles. The no-notice inspection data rated the vehicles
      as outstanding, excellent, and satisfactory.
              Ellsworth. We inspected 124 vehicles of various types including
      U-Drive vans, snowplows, pick-up trucks, ambulances, and buses at Ellsworth
      Air Force Base. The inspections revealed 13 vehicles with paint damage, 3
      vehicles with scratches, and 7 vehicles with normal wear and tear. The
      remaining vehicles were in good condition. We also reviewed the results from
      the no-notice inspections for 119 vehicles. Only 7 vehicles had an
      unsatisfactory rating, 30 vehicles had a satisfactory rating, and 82 had an
      outstanding rating.
             Eglin. We inspected 280 vehicles, including various types of vans,
      pick-up trucks, sedans, buses, and fire trucks at Eglin Air Force Base. The vast
      majority of vehicles were in good condition. The visual inspections revealed 19
      vehicles with chipped paint, 8 vehicles with bed rust, and 2 vehicles with minor
      rust.

                                          6
                             Corrosion Prevention Programs Within the Services

            Hill. We inspected 214 vehicles of various types, including sedans,
    station wagons, pick-up trucks, vans, 5-ton trucks, and refuelers at Hill Air
    Force Base. The majority of the vehicles were in good condition, showing no
    rust, dents, or scratches; 45 vehicles showed signs of rust, but only 8 had a
    serious rust problem. Also, 14 vehicles showed signs of paint damage.
    Conclusion. The Air Force had an effective corrosion prevention and control
    program in place at the locations that we visited. The program began with the
    initial purchase of general purpose vehicles with the standard commercial
    corrosion protection. The corrosion prevention and control then continued
    throughout the life of Air Force vehicles with various programs, including a
    Champion Wheels/Top Wheels Program, the Vehicle Control Officer Program,
    Commander’s roll-bys, and no-notice inspections. While the number of
    locations that we visited was limited, the polices and procedures that the Air
    Force used were effective.


Corrosion Prevention in the Marine Corps
    Corrosion prevention and control are among the main concerns of commanders
    at all levels in the Marine Corps. Marine Corps tactical and ground support
    equipment is particularly susceptible to corrosion and other moisture damage
    because of its assigned missions and geographic locations. Also, the operating
    tempo, salt-laden operating environment, aging equipment, and the
    environmental constraints on many Marine Corps installations cause corrosion
    to valuable warfighting equipment. Vehicles returning from Desert Shield and
    Desert Storm displayed high levels of corrosion problems.
    Camp Lejuene. We inspected 258 pieces of equipment, including the MK155,
    Ml05 and MlOlA3 trailers, M817 dump trucks, and tanks. We looked for rust
    contamination on the equipment selected for the administrative storage program.
    We also inspected for rust contamination on operational equipment belonging to
    8th Bravo Company of the 8th Motor Transport Battalion. The equipment is
    stored in dehumidified and non-dehumidified buildings and open areas for about
    30 months. No corrosion problems were present for equipment stored in
    dehumidified or non-dehumidified buildings; however, equipment stored outside
    showed signs of corrosion, which, according to officials, was not a major
    concern at the time. The equipment is painted with a chemical-agent-resistant
    coating and a corrosion control coating before it is sent to administrative
    storage.
    Corrosion Prevention and Control Initiatives. The Naval Surface Weapons
    Center is conducting a research and development program for the Marine Corps
    to reduce corrosion of combat and tactical equipment and associated
    maintenance burdens. The program is directed toward validating existing
    corrosion prevention methods, using coatings, and identifying corrosion-
    resistant materials. The program is also developing an accelerated test to permit
    rapid screening of better materials and in-service evaluation of new materials
    and procedures.


                                        7
Corrosion Prevention Programs Within the Services


      In addition, the Marine Corps has established a corrosion prevention and control
      program to combat corrosion for tactical and ground support equipment. The
      program’s working group identifies and assesses current and projected corrosion
      problems in the Marine Corps and is presently evaluating many preservatives
      that could extend the equipment’s life cycle.
      Conclusion. The Marine Corps is researching ways to implement corrosion
      prevention and controls in its systems. In addition to the corrosion control
      coating and the chemical-agent-resistant coating programs, the inspect-and-
      repair-only-as-necessary program is also used to control or minimize equipment
      corrosion.
Part II - Additional Information
Appendix A. Audit Process

Scope and Methodology
    This program audit was conducted from December 1996 through December
    1997, in accordance with the auditing standards issued by the Comptroller
    General of the United States, as implemented by the Inspector General, DOD.
    We concentrated on the Services’ wheeled and tracked vehicles to complete our
    objectives and to determine what each Service was doing to prevent corrosion.
    For the Army, we selected MlAl tanks, Family of Medium Tactical Vehicles,
    and M109A6 Paladins to determine the corrosion prevention programs used
    during the acquisition process. In addition, we selected one location within the
    Army to randomly inspect 112 tracked systems to determine whether it had a
    corrosion problem.
    For the Navy, the Air Force, and the Marine Corps, we judgmentally selected
    locations and then randomly selected vehicles to inspect at each location. We
    selected four Navy locations, four Air Force bases, and one Marine Corps
    location. We inspected 564 vehicles at the Navy locations, 736 vehicles at the
    Air Force locations, and 258 vehicles at the Marine Corps location. Vehicles
    inspected included sedans, station wagons, vans, pick-up trucks, 1.5-ton trucks,
    2-ton trucks, 5-ton trucks, tractors, trailers, refuelers, tankers, dump trucks, fire
    trucks, snowplows, snow blowers, fork lifts, ambulances, buses, flat-beds,
    cranes, cargo trucks, jeeps, bobtails, and wreckers. We also interviewed
    maintenance personnel.
    Computer-Processed Data and Statistical Sampling Procedures. We did not
    use computer-processed data or statistical sampling procedures for this audit.
    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DOD. Further details are available on request.


Management Control Program Review
    Requirement for Management Control Review. DOD Directive 5010.38,
    “Management Control (MC) Program,” August 26, 1996, requires DOD
    organizations to implement a comprehensive system of management controls to
    provide reasonable assurance that programs are operating as intended and to
    evaluate the adequacy of the controls.
    Scope of Review of the Management Control Program. We reviewed the
    adequacy of management controls over the implementation of regulations
    dealing with corrosion prevention. We did not assess the adequacy of
    management’s self-evaluation because we did not identify a material weakness.


                                         10
                                                  Appendix A. Audit Process



Adequacy of Management Controls. The Services’ management controls of
policies and procedures dealing with corrosion prevention were adequate at the
locations that we visited. We identified no material management control
weaknesses in the area of corrosion prevention.




                                   11
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Deputy Under Secretary of Defense for Logistics
  Director, Defense Logistics Studies Information Exchange
Deputy Under Secretary of Defense (Acquisition Reform)
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public Affairs)
Assistant Secretary of Defense (Reserve Affairs)

Department of the Army
Commander, Tank-automotive and Armaments Command
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency




                                         12
                                                      Appendix B. Report Distribution



Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
   General Accounting Office

Chairman and ranking minority member of each of the following congressional committees
  and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental AfTairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
    Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal Justice,
    Committee on Government Reform and Oversight
  House Committee on National Security




                                            13
Audit Team Members

The Acquisition Management Directorate, Office of the Assistant Inspector
General for Auditing, DOD, produced this report.
Thomas F. Gimble
Patricia A. Brannin
James L. Koloshey
Michael E. Simpson
Julius L. Hoffman
Ronald L. Nickens
Stanley J. Arceneaux
Benedict0 M. Dichoso
Warren M. Brooks




                               14
